NO. 20 -194
■t

In The
SUPREME COURT OF THE UNITED STATES
FRANKLIN COX, Petitioner
v.

TEXAS WORKFORCE COMMISSION
AND LINCOLN TECHNICAL , Respondent

On Petition for a Writ of Certiorari to the
Court of Appeals of Texas , Fifth District

PETITION FOR REHEARING
Franklin L. Cox
P.O. Box 398783
Dallas, Texas 75339
Cell: (214) 491-0316
Petitioner Pro Se

RECEIVED
NOV 1 6 2020
SfjJJCE or I'idi Ci'KOK
SUPREME on-nr; Ti --

Table of Contents
Table of Authorities
Grounds for Rehearing
Affidavit In Support of Motion
For Rehearing.......

u
1.4
5.13

Conclusion

14

Certificate of Counsel

15

Appendix.. A.

16

Affidavit of Rick Calverley in Support
of Defendants ’ Motion For Summary
Judgment reprinted for booklet form
(CR 170 - CR 172).................................

17.22

Pursuant to Rule 44.2 respectfully petition
for rehearing of the Court’s order denying
Certiorari in this case.
Grounds for Rehearing
Grounds acknowledge that affidavit of Rick
Calverley in support of motion for summary
his unverified arguments nor has any suppor­
ting evidence attached to affidavit in support of
testimony given(CR 170 - CR 172).
Unsupported testimony:
2. “During his employment with Lincoln Techncal. I supervised Plaintiff Franklin Cox (“Cox”)
(CR 170)( App A).Calverley does not states the
relevant time period he was Cox am supervis­
or. Calverley also states “ I am the Education
supervisor for Lincoln Technical and have ser­
ved in this position since July 2013.” Attached
documents to Calverley affidavit conclusively
established:
Rick Calverley
CNC Education Supervisor
2501 E. Arkansas
Grand Prairie, Texas 75052
(972)660-5701 ext. 41112
( CR 134) (CR 136)( CR 138) and (CR 139).
5. Calverley testified “ Cox performed to my
satisfaction until around January 2016". In
item 3. Calverley testified “ I am also a custod­
ian of records for Lincoln Technical’ (CR 170 &
CR 171). Calverley does not provide the under­
lying facts to support the conclusion on Cox
1

performance. See Tex. R. Civ. P. 166a(f). Also
see 1001 McKinney Ltd v. Credit Suisse First
Boston Mortgage Capital, 192 S. W. 3d 20, 27
(Tex . App- Houston [ 14th Dist.] 2005, pet.
Denied). Calverley testified he is a custodian
of records for Lincoln Technical but he failed
to attached supporting evidence to support his
speculative opinion testimony on Cox perfor­
mance (CR 171 App A).
6. Calverley testified” I issued Cox multiple
verbal and written warning regarding his
performance “ Also including No. 8. “were of
the highest priority” Calverley does not give
any supporting evidence that he did not com­
ply with Cox request for material needed (CR
194 & CR 135) as outline in (CR 13- CR 14
No.5) advise supervisor of needed material.
7. Specifically, on January 21, 2016,1 assigned
Cox a list of five reasonably simple tasks that
needed to be completed by the next day. These
tasks included leak testing of welding booths,
Teflon taping, plugging gas lines which had
valves left open, retesting the gas lines after
repair, and repairing a fine in booth 73. Cox
did not complete the assigned tasks”.
Calverley does not give any supporting eviden­
ce to support this assigned task, this is not the
task that I received by email January 21, 2016
at 11:48 am (CR 162). See Petitioner’s Affi­
davit In Support of Motion For Rehearing item
No.4 assignment that Cox received attached
within.
2

9. Calverley testified he “ issued Cox a “Letter
of Concern “ on February 2, 2016, emphasizing
the need for such assigned tasks to be compl­
ete”. Calverley does give any supporting evi­
dence as to what method it was issued to Cox.
Cox received copy of Letter of Concern after
6/28/2016 from TWC packet.
11. Calverley testified “I instructed Cox that
he could use overtime to complete these tasks.
Cox could also order tools, if needed, to comp­
lete these task”. Calverley does not give any
supporting evidence, Cox never requested
overtime nor made a request for tools. This
is a false statement.
12. On March 22, 2016, after these tasks still
had not been completed, I issued Cox an
“Employee Success Plan” further voicing my
concerns regarding his failure to complete ass­
igned tasks, along with other performance
deficiencies.”Cox did receive Employee Success
Plan at the meeting. Cox disagree with it and
did not sign it. ESP plan conflicts with Lincoln
Education Services, Performance Appraisal
Program (CR 89 -CR 90). Cox 2014 Employee
Performance Appraisal, Appraisal Date 1/20
/15. Overall Rating on General Performance
Requirements^]. 2015 Employee Performance
Appraisal due 1/20/16, was not done by Mr.
Calverley (CR 84- CR 88).
3

13. Calverley testified On April 1, 2016, I
e-mailed Cox that there was still a “significant
leak” in the Argon tank. I explained to Cox of
the numerous reminders and deadline exten­
sions he had already been provided to compl­
ete this task. Regardless of any reminders,
Cox failed complete any tasks assigned to him.
I reassigned Cox’s tasks to another employee,
who was able to complete them within a few
days. Calverley does not provide the support­
ing evidence attached to affidavit assigning
Cox to do service in Argon & Co2 tank area.
This is a false statement (CR 172).
15. Calverley testified “ I made the decision to
terminate Cox employment, effective June 23,
2016. A copy of Cox’s “ Termination Transmi­
ttal Form “ is attached. Affidavit fails to show
Calverley supervised Cox 10-1-2015 thru 6-28
-2016 date of termination (CR 183 #11).
16. Calverley testified I have read the forego­
ing statements, and I declare under the pena­
lty of perjury that the foregoing statements
are true and correct. Calverley affidavit legally
insufficiency to support the motion for summ­
ary judgment (CR 182).

4

NO. 20-194
Franklin L. Cox
Petitioner

In The Supreme Court of

v.

The United States

Texas Workforce
Commission and
Lincoln Technical,
Respondent

Washington, D.C.

Petitioner’s Affidavit In Support of Motion
For Rehearing
Petitioner, Franklin L. Cox submits this
affidavit supporting this motion for rehearing.
Before me, the undersigned notary, on this day
personally appeared Franklin L. Cox, the
affiant, a person whose identity is unknown to
me is properly indemnify by Texas driver lice­
nse. After I administered an oath to affiant,
affiant testified:
1. “My name is Franklin L. Cox , I am over the
age of twenty one (21) years, of sound mind ,
and have never been convicted of a felony. I
am an adult resident of Dallas, Texas, an fully
competent and capable to testify herein . I am
owner in the capacity of having personal kno­
wledge of all the facts set forth herein, and
able to swear, and I hereby do swear , that all
5

the facts and statements herein are true and
correct”.
2. On or about July 10, 2013 Franklin L. Cox
enter into oral and written agreement with job
description of Tool Room Attendant with
Lincoln Educational Services, sign the agree­
ment that I have received the job description
and understand the duties and responsibilities
of the position ( CR 13-14).
3. On January 21, 2016 Thursday @ 10:00 am
Mr. Rick Calverley, Mr. Rivera (115 Tig instr­
uctor am) and Air Gas service tech for Argon
and Co2 tanks. Mr. Calverley stated that it
was leaks all over the lab. Cox lock ramp room
went in welding lab located a broken argon
line behind booth 73 above cut off valve, go
and founded Mr. Calverley told him about leak
show it to him and he want to know how long
it would take to repair? About an hour.
4. On January 21, 2016 got email with two
attachment @ 11: 48 am.
1. Leak test all booth from shut off to flow
meter.
2. Teflon tape all fitting from shut off to
flow meter.
3. Plug all gas lines. There are fines coming
into the booth with no hose that are not
plugged . See the picture. This is a safety
issue, if a student intentionally or acciden­
tally open we will have flowing gas into lab.
6

4. After the booth are completed, leak test
the argon lines from booth all the way
to the mixer.
5. At 1 pm. Today, shut down the Argon
system and repair the line you broke in
booth 73. I will keep student out until
2pm (CR 162).
[x] attachment one is a photo of booth 49
exposed electric wires it appeared to me
some one was trying to repair a foot ped­
dle for Tig machine.
[x] attachment two is a photo of booth 51
picture of shut off valve and flow meter
for Co2 gas in off position no green hose
Install on it.
5. On January 21, 2016 4:30 sent email to Mr.
Calverley , Tig systems and booth did not fin­
ish , booth 69 has bad regulator. Booth 73 rep­
airs are complete. The entire system of 75
booth will have to be look at. I did not brake
booth 73 fine. (finish for today time to clock
out (CR 133).
6. On January 25, 2016 3:04 pm Monday day 3
on the leaks, got email from Mr. Calverley “I
can not give you the plugs until you tell me
what size and how many. I need to know when
this will be complete. As I said before, this has
more priority than anything “ (CR 134). We
have 19 Tig booth all have Co2 gas drop
complete with shut off valve and flow meter

with green hose attached to flow meter that
lay behind machine on the floor. Prior conver­
sion with Mr. Calverley told him I needed a
dozen V2 galvanized plugs.
7. On January 27,2016 11:28 am. Still having
issues with machine some are still leaking.
Need to get bundles ready for student and
booth appointed (class delayed 1st day) (CR
134).
8. On January 29, 2016 4;28 pm. Tig booth
still not complete, we are using used parts
they have to disconnected -clean- inspectiontape - reassemble and hope they don’t leak.
If they start over again. Began putting tag on
unit that pass or failed test. Need more thread
seal tape (CR 135).
9. On February 11, 2016 9:41 am. Mr. Calv­
erley “Mr. Cox I need a full daily update of
your progress” (CR 1360.
10. On February 11, 2016 12::31 Sent email on
Tig booth found bad joint with compressor oil
all over it allowing it to enter in to line thru
ring gap open, clean joint no black stuff in
weld as of today.
Row B at the bottom 8-V350 units has pass
first test
Row B center section 4-V350 has pass second
Test ready for load test.
Row C at the bottom 8 units need to be sent
8

out (1) Miller XMT 350 (2) 5- Lincoln V
350 (3) Cut master 102 (4) track carrier.
By the sink 12 wire feeder tag for scrap. The
tig joint I shared with you Monday 2-8-2016
(CR 136). This was the first update on the
machine the handwriting on the email was the
update made two copies place one copy under
Mr. Calverley office door and the other goes to
Mr. Stanley Jenkins pm supervisor under his
door.
11. On February 23, 2016 l:55pm.”Mr. Cox see
email below. To date, you not answered that
email or given me any updates. Can you
explain why?
Row B, 4 V-350 ready for load test
7 V- 350 ready for load test, stack at
he end of row B.
Row B center 5 V-350 ready for load test.
Row C bottom add 3 V- 350 to original num­
ber (8+3=11 units to be sent out).
All wire feeder check and tag if parts are
missing (CR 136)
These wire feeder are on the top self of Row A
And Row B.
12. March 22, 2016 front office meeting Mr.
Rick Calverley am supervisor, Mr Stanley
Jenkins pm supervisor and Franklin Cox. Ord­
er of the meeting was Employee Success Plan
which was hand delivered to Cox to take home
and study it at cox request.
13. March 23, 20161 told Mr. Calverley I in
9

Good conscious can not sign this plan hand it
back to Mr. Calverley, Mr. Calverley was try­
ing to explain the plain.
In Mr. Calverley Employee Success Plan,
Section One: History it states “On Feb. 11,2016 I asked for a daily update of progress,
In writing of both tasks. I followed that up
On Feb.23rd, asking again for an update and
I received no reply.
Total for machine for Feb. 11, 2016 and Feb.
23, 2016 in writing from (CR 136) V-350
that pass second test ready for load test 4
from Feb. 11 add to 16 V-350 from Feb. 23,
2016 total of 20 V-350. Units to be sent to
Airgas Row C 11 units. 12 wire feeder tag for
scrap, Cox not authorized to remove scan
tags from Lincoln property. Cox not authori­
zed to send units out for repair to Airgas.
14. On April 1, 2016 3:26 pm. Mr. Calverley
“ Mr. Cox Airgas was just out to refill the
Argon tank and he came and told me we have
a “ significant leak”. Back in January, as we
have discussed, I tasked you to check that line
for leaks and update me. Also in your ESP you
were to give me weekly updates on task you
assigned. Why have I not received an update
on this task?
What is the current status of fixing leaks and
inspection of lines?
10

From ESP:
3. Weekly you will meet with your supervisor
and discuss concerns with down equipment
and status of machine repairs “ (CR 139).
15. On April 1, 2016 3:51 pm We did have a
big leak in January, booth 73 was broken in­
line. Can you forward me a list on your finding
on leaks that you did this weak also fist of
down machine, I only have one Miller from
booth 4 replaced with Lincoln 350 from row b.
have no other down at this time. Also did not
sign that 30 day termination notice. You had
Billy looking at that miller XMT 350 (CR 137).
16. On April,2016 7,58 pm. Mr. Calverley “Mr.
Calverley we do not have a “30 day terminat­
ion notice.” What you refused to sign was an
Employee Success Plan, which is an outline of
some discrepancies in your performance and a
plan to help you succeed in correcting them.
The Airgas finding was not from January, it
was from today and has been ongoing for wee­
ks, costing us a significant amount of lost
Argon. What I found in my inspection this
week was that we still have booths leaking”
(CR 138).
17. On April 5, 2016 hand delivered report Ar­
gon Repair 1-21-16 11:48 am:
1. Cover page: emailed received 1-21-16 11:48
11

am typed top of page, drawing that Cox
did, middle and bottom of page. Cover page
is for items No. 1 and No. 2 on the repair
email. Drawing shows were tape was replac­
ed after joints were disassemble, clean (rem­
oved old tape if present), inspected, install
tape, reassemble shut off valve to flow meter
(CR 162).
2. All Co2 gas lines that needed plugs were
taped up with electrical tape. See email item
No. 3 on the repair (CR 162).
3. Cover page item No. 4 Flow chart of Argon
lines to Tig area booths back to mixer. All
line joint were clean and check for leaks.
Bad joint were reported, hand drawing (CR
162).
4. Cover page item 5. Cox made emergency
repair to broke argon line in booth 73. Booth
73 repaired to be repaired first due to the
serious of an open line “significant leak”, and
safety. All general measure safety precaution
done 1st stop flow of Argon. Broken Argon line
in booth 73 was repaired, 4 cutoff valve for
booth 69-75 were slowly turn back on allow­
ing Argon to build up, and check for leak in
repaired area. Booth 73 repairs complete was
reported 1/21/2016 2 4:30pm (CR 162).
On April 5, 2016 hand delivered report Argon
Repair 1-21-16 11:48 am. One copy was hand
delivered to Mr. Calverley standing in his
12

in his office door witness by Richard Ehrhardt,
another copy unlocked door to Mr. Stanley
Jenkins office place copy on his desk.
Petitioner Franklin 1. Cox provides the under­
lying facts to support the conclusion in his
affidavit by attaching supporting documents,
and describing the circumstance of his perpersonal involvement in the events relevant to
summary judgment evidence should have been
fully considered. Mr. Calverley intended to
cause an adverse employment action, that act
was the proximate cause of the ultimate empl­
oyment action Cox was fired.
I Franklin L. Cox declare under the penalty of
perjury that the foregoing statements are true
and correct
^—■" Franklin L. Cox
STATE OF TEXAS
COUNTY OF DALLAS
SUBSCRIBED AND SWORN TO BEFORE
ME Z*4* day of klwu+h ■pt—
2020
{/

NOTARY PUBLIC AND FOR
THE STATE OF TEXAS
My Commission
Expires:

MW

ARTHUR RASHAAD WEBSTER
Notary Public. State of Te xas
Comrri' Expires 06-12-2021
\lin/
Notary ID 131167645

Certificate of Counsel
I hereby certify that this Petition For
Rehearing is presented in good faith and not to
delay, and that it is restricted to the grounds
Specified in Supreme Court Rule 44.2

a.

Franklin L. Cox

15

CAUSE NO. DC- 17-01261
FRANKLIN COX

IN THE DISTRICT
COURT

v.
TEXAS WORKFORCE
COMMISSION And
LINCOLN TECHNICAL,

DALLAS COUNTY,
TEXAS

134th JUDICIAL
DISTRICT

Defendants.

AFFIDAVIT OF RICK CALVERLEY IN SUPP­
ORT OF DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT
STATE OF TEXAS §
§

COUNTY OF HILL §
BEFORE ME, the undersigned
authority, personally appeared Rick Calverley ,
who being duly sworn deposed as follows:
1. My name is Rick Calverley, I am over
21 years of age, of sound mind, and fully comp­
etent to testify as a witness. I have personal
knowledge of all facts recited herein and state
2. I am the Education Supervisor for
Lincoln Technical and have served in this pos­
ition since July 2013. As Education Supervisor,

I oversee and supervise the day-to- day operat­
ions of the institute. This includes, but is not
t limited to, assigning task to staff, completing
performance evaluations, progressively issuing
performance and behavior related discipline,
and making employment decisions regarding
staff hiring, promotions, and termination.
During his employment with Lincoln Techn­
ical, I supervised Plaintiff Franklin Cox
(“Cox”), Part of my job responsibilities also in­
clude handling and/ maintaining Lincoln Tech­
nical’s records, such as those referenced and
attached herein.
3. I am also a, custodian of records for
Lincoln Technical. Referenced herein are
seven (7) pages of records concerning Cox, in­
cluding a “ Letter of Concern”, “ Employee Suc­
cess Plan”, and “ Termination Transmittal
Form” .These records are kept by Lincoln Tech­
nical in the regular course of business, and it
was the regular course of business of Lincoln
Technical for an employee or representative of
Lincoln Technical, with personal knowledge of
the act, event, condition, opinion, or diagnosis
recorded to make the record or to transmit
information thereof to be included in such
record; and the record was made at or near the
time or reasonably soon thereafter . The rec­
ords attached hereto-are the original or exact
duplicates of the original.
4. Cox began working for Lincoln Techncal as a Tool Room Attendant in April 2013.
He remained in this position until bis

termination in June 2016.
5. As Tool Room Attendant, Cox was
primarily responsible for the proper mainten­
ance of the tool room, welding lab, and ramp
room. Cox performed to my satisfaction until
around January 2016.
6. From January 2016 until his disch­
arge from Lincoln Technical, because he failed
to follow through with assigned tasks, I issued
Cox multiple verbal and written warnings reg­
arding his performance.
7. Specifically, on January 21, 2016,1
assigned Cox a list of five reasonably simple
tasks that needed to be completed by the next
day. These tasks included leak testing of weld­
ing booths, Teflon taping , plugging gas fines
valves left open, retesting the gas fines after,
and repairing a fine in booth 73. Cox did not
complete the assigned tasks.
8.1 gave Cox multiple extensions, which
he failed to meet. I sent Cox multiple email re­
minders and notified him these tasks were of
the highest priority.
9. Due to Cox’s disregard and failure to
complete the tasks assigned to him, I (with the
support of Cory Hughes, President, and Ron
Harris, Director of Education) issued Cox a
“Letter of Concern” is attached. The letter spe­
cifically referenced the January 21, 2016 assi­
gned tasks, the failure to complete them, and

the resulting financial loss to the company and
the potential safety hazards to students. The
warning requested that Cox complete the ass­
igned tasks, and apprised hazards to students.
The warning requested that Cox complete the
assigned tasks, and apprised him that contin­
ued violations would result in further discipli­
nary action. Cox refused to sign the document.
10.1 followed up with Cox on a least
two separate occasions regarding the status of
Argon leak, leaking booths, Teflon taping, gas
line plugging, which were all still incomplete.
11.1 instructed Cox that he could use
overtime to complete these tasks. Cox could
also order tools, if needed, to complete these
tasks.
12. On March 22,2016, after these tasks
still had not been completed, I issued Cox an
“Employee Success Plan” further voicing my
concerns regarding his failure to complete ass­
igned tasks, along with other performance deficienies (including working room condition,
attendance, out-of-service welding machines).
A true and correct copy of the “Employee Succ­
ess Plan” is attached. I set an April 1st deadfine for Cox to complete the TIG booth repairs,
leaking Argon fines, and other tasks. I reitera­
ted to Cox that his performance was at an uns­
atisfactory level, and that failure to improve
would result in further disciplinary action, inc­
luding termination. Cox refused to sign the
document.
20

13. On April 1, 2016 I e-mailed Cox that
there was a “significant leak” in the Argon tank. I
explained to Cox of the numerous reminders
and deadline extensions he had already been
provided to complete this task. Regardless of
my reminders, Cox failed to complete any
tasks assigned to him. I reassigned Cox’s tasks
to another employee, who was able to complete
them within a few days.
14.1 provided Cox ample opportunity to
complete his assigned tasks, even when he co­
nsistently failed to follow through. Each of
Cox’s formal disciplinary documents advised
him that future violations would be addressed
with further discipline, up to and including
termination of employment.
15. Given Cox’s unsatisfactory job perf­
ormance in failing to follow through with assi­
gned tasks, after previously demonstrating
his ability to perform to my satisfaction, I
made the decision to terminate Cox’s employ­
ment, effective June 23, 2016. A copy Cox’s
“Termination Transmittal form” is attached.
16.1 have read the foregoing statements,
and I declare under the penalty of perjury that
the foregoing statements are true and correct.
21

“Rick E. Calveriv”
Affiant

Executed on October_9,2017

SWORN TO AND SUBSCRIBED before me
on the___ day of October, 2017

“Nvree Preston”
Notary Public, State of Texas
Notary’s printed name: Nvree Preston
Nyree Preston
Notary Public, State of Texas
My Commission Expires
June 30, 2918
My Commission Expires:6/30/2018
22

